                                                                  Issue Date
                                                                    September 21, 2007
                                                                  Audit Report Number
                                                                    2007-LA-1016




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
            Development, 9DD




FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: A Community of Friends, Los Angeles, California, Did Not Always Administer
         Its Cash Match in Compliance with HUD Requirements



                                    HIGHLIGHTS

 What We Audited and Why

      We audited A Community of Friends (Community) as a result of on-site audit work
      performed as part of a separate audit of the Los Angeles Homeless Services Authority’s
      (Authority) use of Supportive Housing Program funds. Our audit objective was to
      determine whether the Community applied and tracked its U.S. Department of Housing
      and Urban Development (HUD) Supportive Housing Program cash match in accordance
      with applicable laws, regulations, and requirements.


 What We Found

      The Community did not always administer its Supportive Housing Program cash match
      in compliance with HUD requirements. It failed to meet its supportive services cash
      match requirements for 1 of 15 grants reviewed. The grant did not meet the statutory 25
      percent cash match requirement and included ineligible expenses as cash match. A
      second grant, while still active, is deficient in the amount of cash match provided through
         the first four months of the grant term. We attribute these deficiencies to the
         Community’s inadequate understanding of cash match requirements and the Authority’s
         (the pass-through agency) failure to monitor the Community’s cash match operations.

    What We Recommend


         We recommend that HUD require the Authority 1 to repay the $71,318 balance of the
         grant funds expended for the Vista Nueva supportive services grant from nonfederal
         funds. We also recommend that HUD require the Community to revise its policies and
         procedures to include details on cash match administration, including determining
         eligible cash match expenses. Finally, we recommend that HUD instruct the Community
         to explicitly state the original source of cash match funds on all future annual progress
         reports.

         For each recommendation without a management decision, please respond and provide
         status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
         copies of any correspondence or directives issued because of the audit.

    Auditee’s Response


         We provided our discussion draft report to the Authority and the Community on August
         9, 2007, and held an exit conference on August 15, 2007. The Authority and the
         Community provided their written comments on the requested date of August 24, 2007.
         The Authority and the Community generally disagreed with our report.

         The complete text of the responses from the Authority and the Community, along with
         our evaluation of those responses, can be found in appendix B of this report.




1
 HUD awarded Supportive Housing Program funds to the Authority, which then passed the funds through to the
Community to carry out the grant activities. The Authority is responsible for compliance with the grant agreement
and HUD requirements as the grantee.


                                                        2
                            TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
      Finding 1: The Community Did Not Always Administer Its Supportive Housing   6
      Program Cash Match in Compliance with HUD Requirements

Scope and Methodology                                                             10

Internal Controls                                                                 11

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              12
   B. Auditee Comments and OIG’s Evaluation                                       13
   C. Criteria                                                                    21




                                            3
                     BACKGROUND AND OBJECTIVES

The Supportive Housing Program is authorized under Title IV of the McKinney-Vento Homeless
Assistance Act (United States Code 11381-11389). The program is designed to promote the
development of supportive housing and services, including innovative approaches to assist
homeless persons in the transition from homelessness, and to promote the provision of
supportive housing for homeless persons to enable them to live as independently as possible.
Eligible activities include transitional housing, permanent housing for homeless persons with
disabilities, innovative housing that meets the intermediate and long-term needs of homeless
persons, and supportive services for homeless persons not provided in conjunction with
supportive housing.

A Community of Friends (Community) was established in 1988 as a building developer, creating
housing for individuals and families with special needs. The Community has completed 1,169
units in 31 properties, primarily throughout Los Angeles County, California, and has several
properties under development. Completed projects include substantial rehabilitation and new
construction and range in size from 9 to 114 units.

The Community receives a substantial amount of its support from loans, contracts, and grants
awarded by various federal, state, and local government agencies, foundations, and corporations.
Since January 2004, the Community has received nearly $8 million in Supportive Housing
Program contracts, of which 15, totaling almost $3.3 million, are currently active. A majority of
the Community’s Supportive Housing Program funding is passed through the Los Angeles
Homeless Services Authority (Authority). Of the 15 grants we reviewed, 11 are passed through
the Authority, and four are received directly from the U.S. Department of Housing and Urban
Development (HUD).

    Grant number                         Project                          Grant amount
    CA16B300012        Brandon Apartments                                  $       325,549
    CA16B300116        Project Independence (Gateways)                             449,120
    CA16B400002        California Hotel Apartments                                 392,700
    CA16B400013        Fox Normandie Apartments                                    169,419
    CA16B500003        Figueroa Apartments                                         210,433
    CA16B500012        Fedora Apartments                                           112,450
    CA16B500015        Fox Normandie Apartments                                    169,419
    CA16B500017        Vista Nueva Apartments                                      156,635
    CA16B500018        Las Palomas Apartments                                      225,355
    CA16B500019        Brandon Apartments                                          162,775
    CA16B500020        Gower Street Apartments                                     258,249
    CA16B500025        Step Out (HUD direct)                                       213,003
    CA16B400003        39 West (HUD direct)                                        350,000
    CA16B400015        Parker (HUD direct)                                          52,250
    CA16B500007        Parker (HUD direct)                                          52,250
                                 Total                                     $     3,299,607



                                                4
We initiated our audit based on results obtained during a separate audit 2 of the Authority and its
use of Supportive Housing Program grant funds. During the audit of the Authority, we reviewed
the Community’s cost eligibility, participant eligibility, and cash match administration. Our
review determined that the Community generally followed HUD rules and regulations with
regard to cost and participant eligibility. However, we concluded that a limited scope audit
focused on the Community’s Supportive Housing Program cash match was warranted based on
potential deficiencies identified.

Our objective was to determine whether the Community applied and tracked its HUD Supportive
Housing Program cash match in accordance with applicable laws, regulations, and requirements




2
    Audit report 2007-LA-1013, Los Angeles Homeless Services Authority (June 8, 2007).

                                                        5
                                RESULTS OF AUDIT

Finding 1: The Community Did Not Always Administer Its Supportive
Housing Program Cash Match in Compliance with HUD Requirements
The Community did not always administer its Supportive Housing Program cash match in
compliance with HUD requirements. Specifically, it improperly applied ineligible expenses as
cash match for 11 of 15 grants. However, while nine of the grants had enough additional sources
of funding to meet the cash match requirements, one grant failed to meet the 25 percent cash
match requirement of $17,756. In addition, a second grant is deficient in the amount of cash
match provided through the first four months of the grant term to ensure that it will have met the
cash match requirements by the end of the grant term. The Community also failed to distinguish
the source of the cash match on its annual progress reports to HUD. We attribute these
deficiencies to the Community’s inadequate understanding of cash match requirements, policies
and procedures that did not address cash match, and the Authority’s failure to monitor the
Community’s cash match operations. As a result, neither HUD nor the Authority was assured
that the Community maximized the effectiveness of the Supportive Housing Program’s intent.


 The Community Failed to
 Provide the Required Cash
 Match for One Grant and Has
 Fallen Behind on a Second
 Grant


       The Community had supporting documentation for all 15 of its active Supportive
       Housing Program grants and displayed the ability to track cash match, both in the general
       ledger and with the use of external spreadsheets. However, contrary to the 2005 Super
       Notice of Funding Availability and Office of Management and Budget Circular A-110
       (see appendix C), the Community improperly applied ineligible expenses as cash match
       for 11 of 15 grants as shown in the table below. The Community also failed to
       distinguish the source of the cash match (County of Los Angeles Department of Mental
       Health, project-specific limited partnerships, and/or the Community) on its annual
       progress reports submitted to HUD.

              Grant number                           Project
              CA16B300012        Brandon Apartments
              CA16B400002        California Hotel Apartments
              CA16B400013        Fox Normandie Apartments
              CA16B500003        Figueroa Apartments
              CA16B500012        Fedora Apartments
              CA16B500015        Fox Normandie Apartments




                                                6
                  CA16B500017         Vista Nueva Apartments
                  CA16B500018         Las Palomas Apartments
                  CA16B500019         Brandon Apartments
                  CA16B500020         Gower Street Apartments
                  CA16B400003         39 West (HUD direct)

Our review of the 11 grants identified the following ineligible expenses:

          •  Mileage reimbursement (not listed in the technical submissions),
          •  Auto allowance (not listed in the technical submissions),
          •  Personal cell phone allowance (not allocable and not listed in the technical
            submissions),
          • Supplies (not always allocable),
          • Salaries (timesheets did not always support claimed time), and
          • Security expenses 3 (expense not listed in the technical submission).

Based on further review, however, we determined that only one grant failed to meet the 25
percent supportive services cash match requirements. A second grant has fallen behind its 25
percent cash match requirement, however, it still has eight months in the grant term to meet its
cash match obligations. The remaining nine grants maintained enough residential security
expenses to cover the 25 percent cash match requirement. Details of the material deficiencies in
the Community’s cash match application and documentation for the two grants that did not meet
the cash match requirements are discussed below.

      •    CA16B500017 (Vista Nueva Apartments) – The Community claimed supportive
          services cash match in the amount of $5,335, which is $12,421 short of the required 25
          percent. In addition to the shortage, $696 was for eligible cash match expenses, and
          $4,639 was for ineligible cash match expenses. The ineligible expenses included mileage,
          parking, auto allowances, personal cell phone allowances, and one month of salary. For
          example, the Community applied $3,042 of $27,388, or 11.1 percent, in November 2006
          for the salary of a residential services coordinator covering the period March 1 through
          October 31, 2006; however, timesheets indicated that only 2.54 percent of the residential
          services coordinator’s time was charged to the Vista Nueva project. Therefore, only $696
          of the $3,042 in claimed salary was eligible (27,388 x 2.54 percent). The mileage,
          parking, auto allowances, and personal cell phone allowances were not listed in the
          approved budget as required and, therefore, were also ineligible. A breakdown of the
          grant disbursements and cash match for this grant are as shown below.




3
    Applies only to Brandon Apartments grant CA16B300012.

                                                      7
                                             25
                                                      Cash     Eligible   Ineligible    Percentage of
       Grant      Amount     Supportive   Percent
                                                      match     cash        cash       cash match not
      number     disbursed    services     match
                                                     claimed   match       match            met
                                          required
   CA16B500017    $ 74,290   $   71,023   $ 17,756   $ 5,335   $   696    $ 4,639        96 percent

       CA15B500019 (Brandon Apartments) – The Community claimed supportive services
       cash match in the amount of $4,566, which is $6,664 short of the required 25 percent. In
       addition to the shortage, $4,292 was for eligible cash match expenses, and $274 was for
       ineligible cash match expenses. The ineligible expenses included mileage, parking, auto
       allowances, and personal cell phone allowances. For example, the Community applied
       $25 of $170 as cash match for a December 2006 auto allowance. However, the auto
       allowance was not listed in the approved budget and was not grant specific and was,
       therefore, ineligible. The mileage, parking, and personal cell phone allowances were not
       listed in the approved budget, so they were also ineligible. Our review covered the
       period December 2006 through March 2007, therefore, the grant has eight months of
       which to meet its cash match obligations. We have identified this grant as deficient to
       bring awareness to the Community and the Authority that it has fallen grossly behind on
       its cash match obligations. However, we are aware that the Community has until the end
       of the contract period to fulfill its cash match obligations.

                                             25
                                                      Cash     Eligible   Ineligible    Percentage of
       Grant      Amount     Supportive   Percent
                                                      match     cash        cash       cash match not
      number     disbursed    services     match
                                                     claimed   match       match            met
                                          required
   CA16B500019    $ 47,418   $   44,918   $ 11,230   $ 4,566   $ 4,292    $     274      62 percent

The Community also failed to distinguish the source of the cash match (County of Los Angeles
Department of Mental Health, project-specific limited partnerships, and/or the Community) on
its annual progress reports submitted to HUD. Regardless of the source of cash match funds, the
Community listed the source as itself on each of six annual progress reports we reviewed.
However, all 15 grants in our sample received cash match funds from the Community, the
County of Los Angeles Department of Mental Health, a project-specific limited partnership, or a
combination of the three sources.


 Conclusion


       We attribute the cash match deficiencies to the Community’s not understanding cash
       match requirements and the Authority’s (the pass-through agency) failure to monitor the
       cash match operations of its subgrantees. Based on interviews and our documentation
       review, it was apparent that the Community did not have a firm understanding of which
       expenses were eligible as cash match and which were eligible sources of cash match
       funds. The Authority’s failure to monitor the Community’s cash match contributed to the




                                                8
        inadequate understanding of cash match requirements. A prior audit 4 of the Authority’s
        Supportive Housing Program grant administration concluded that the Authority did not
        adequately perform its desk review of the Community’s cash match supporting
        documentation. As a result, neither HUD nor the Authority was assured that the
        Community maximized the effectiveness of the Supportive Housing Program’s intent.


    Recommendations


        We recommend that the director of the Los Angeles Office of Community Planning and
        Development

        1A.     Require the Authority to repay the $71,318 5 balance of the grant funds expended
        for the Vista Nueva supportive services grant from nonfederal funds.

        1B.     Require the Authority to monitor the Community’s compliance with the cash
        match requirements on the Brandon Apartments supportive services grant. If the cash
        match requirement is not met by the end of the grant, then the Authority should be
        required to repay the balance of grant funds expended in which there was a cash match
        shortfall.

        1C.   Require the Community to revise its policies and procedures to include details on
        cash match administration, including determining eligible cash match expenses.

        1D.    Instruct the Community to explicitly state the source of its cash match funds on its
        annual progress reports.




4
 Audit report 2007-LA-1013, Los Angeles Homeless Services Authority (June 8, 2007).
5
 We calculated the $71,318 as a percentage of total Supportive Housing Program funds disbursed. For grant
CA16B500017, the Community received $74,290, and we determined that it did not meet 96 percent of its cash
match obligations; therefore, the prorated portion of the total disbursed is $71,318.

                                                      9
                        SCOPE AND METHODOLOGY

We performed our audit work at the Community located in Los Angeles, California, from April
through July 2007. Our audit generally covered the period December 2004 through March 2007.
We expanded our scope when necessary.

To accomplish our audit objectives, we

   •   Reviewed applicable HUD regulations and Office of Management and Budget circulars.

   •   Reviewed HUD’s Los Angeles Office of Community Planning and Development grant
       files associated with Supportive Housing Program grants received by the Community and
       interviewed appropriate personnel.

   •   Reviewed the Community’s 15 Supportive Housing Program active grants, including the
       technical submissions, grant agreements, and annual progress reports.

   •   Obtained an understanding of the Community’s procedures, including its controls to
       ensure that it properly administers its Supportive Housing Program.

   •   Interviewed the Community’s management and staff to acquire an understanding of its
       cash match procedures, practices, tracking, and application.

   •   Reviewed the Community’s payroll data, cost eligibility, and cash match accounts.

   •   Reviewed audited financial statements for the Community and the limited partnerships
       for each project.

   •   Reviewed contracts between the Community and the County of Los Angeles Department
       of Mental Health.

   •   Interviewed County of Los Angeles Department of Mental Health management and legal
       counsel to assess the eligibility of cash match funds provided.

   We performed our review in accordance with generally accepted government auditing
   standards.




                                              10
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

           •   Policies and procedures that management has implemented to ensure accurate,
               current, and complete disclosure of financial results.
           •   Policies and procedures that management has implemented to reasonably ensure
               that its Supportive Housing Program grants are carried out in accordance with
               applicable laws and regulations.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.


 Significant Weaknesses


   Based on our review, we believe the following item is a weakness:

           •   The Community did not have sufficient controls in place to ensure that its
               Supportive Housing Program grants were carried out in accordance with
               applicable laws and regulations (finding 1). However, we would like to note that
               the Community has taken positive steps to minimize its weaknesses by creating a
               system to track cash match, implementing policies and procedures, and becoming
               more informed on rules and regulations governing cash match.



                                               11
                                       APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE

                              Recommendation           Ineligible 1/
                                  Number
                                      1A                 $71,318



1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
that the auditor believes are not allowable by law; contract; or federal, state, or local policies or
regulations. In this situation, the Community failed to meet the 25 percent cash match
requirement for two of its grants. We calculated the $71,318 as a percentage of total Supportive
Housing Program funds disbursed. For grant CA16B500017, the Community received $74,290,
and we determined that it did not meet 96 percent of its cash match obligations; therefore, the
prorated portion of the total disbursed is $71,318.




                                                 12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1



Comment 2


Comment 3

Comment 4

Comment 5




                         13
Comment 6




Comment 7




            14
Comment 8




Comment 9



Comment 10




             15
Comment 11




Comment 12


Comment 13




Comment 14



Comment 15




             16
Comment 6




            17
                            Evaluation of Auditee Comments

Comment 1   After meeting with HUD Office of Community, Planning, and Development
            officials, we have determined that the Community is correct in their assessment
            that cash match does not need to be applied as supportive services draws are
            received. We agree that the cash match requirement can be met at any time
            during the grant period and should meet the requirement by the end of the grant
            term. We have revised the finding to identify that the grant was cash match
            deficient at the time of our review. However, we have also noted that the
            Community still has eight months to meet its supportive services cash match
            requirement. To this end, we are no longer requiring repayment of grant funds for
            the Brandon Apartments grant.

Comment 2   We disagree with the Community’s assessment that we only reviewed 11 months
            of the contract. While we did base the cash match requirement on 11 months of
            supportive services funding, we reviewed 12 months of actual cash match, as
            documented by the Community. We received the cash match schedule clearly
            identifying 12 months of cash match. During a meeting on May 16, 2007, we
            asked the Community for any updates in its cash match tracking and received
            updated schedules for a number of Supportive Housing Program grants.
            However, we were told that the Vista Nueva schedule was current. We therefore,
            continued our review based on the schedule provided. We have determined to
            leave the portion of the finding related to Vista Nueva unchanged, as it reflects
            our review and finding as the facts stood during our fieldwork. Any new
            information that the Community discovers should be reviewed by HUD during
            the audit resolution process.

Comment 3   We recognize the efforts the Community has taken to update its policies and
            procedures to strengthen its cash match internal controls.

Comment 4   We recognize the efforts the Community has taken to ensure that its annual
            performance reports accurately reflect the source(s) of its cash match dollars.

Comment 5   The heading has been changed to reflect the changes in Comments 1 and 2. The
            heading now reads “The Community Failed to Provide the Required Cash Match
            for One Grant and Has Fallen Behind on a Second Grant.”

Comment 6   We disagree that there was not a weakness in internal controls. During the exit
            conference we discussed what contributed to our assessment of the internal
            controls. Until recently (January 2007), the Community did not have an adequate
            tracking system that was forwarded to the Authority to ensure cash match was
            tracked and reviewed. Additionally, the Community did not have policies and
            procedures in place to ensure that cash match was being applied according to
            HUD rules and regulations. Finally, we noted that the Community’s management
            did not have a complete understanding of the cash match rules and regulations.




                                             18
              We are aware of improvements the Community has made toward strengthening its
              internal controls and have made note of this in the report. For this reason, we
              removed the term “significant” from the audit report.

Comment 7     We disagree that the finding and repayment of funds be eliminated. However, the
              finding has been revised and no longer includes the finding or repayment as it
              pertains to Brandon Apartments (see comments 1 and 2 above).

Comment 8     We disagree that our finding is “overarching.” As noted in Comment 1, we agree
              that cash match does not have to be applied as grant money is received. To this
              end, we revised the Brandon Apartments portion and eliminated the requirement
              of repayment (see comment 1).

              We also disagree that there were not material weaknesses in internal controls. As
              noted in comment 6, our review disclosed certain weaknesses that contributed to
              our finding. However, we eliminated the term “significant” and included a
              statement in the report identifying steps taken by the Community to strengthen its
              internal controls.

Comment 9     We agree that cash match does not need to be applied as grant money is spent
              and/or received (see comment 1). Our discussions with HUD have clarified
              common practice to review cash match as a whole at the end of a particular grants
              contract period.

Comment 10 The Authority is correct in stating that cash match funding is not always received
           at the beginning of a particular grant term and we have made the appropriate
           revisions to the finding. However, we want to bring awareness to the fact that
           each technical submission is required to show the cash match amounts along with
           commitment letters identifying the source of cash match dollars. Each grantee
           and/or subgrantee is required to show HUD the financial ability to provide cash
           match.

Comment 11 We agree. See comments 1, 9, and 10.

Comment 12 We disagree. Based on documents provided to us during our fieldwork, we
           determined that the Community did not fulfill its cash match obligations. As
           stated in Comment 2, we reviewed cash match as presented by the Community
           and did not receive a revised schedule until the exit conference. Our review was
           based on a complete 12 months of cash match, as presented by the Community.
           Any new schedules with additional cash should be reviewed by HUD during the
           audit resolution process.




                                              19
Comment 13 As stated in Comment 1, we agree that cash match should does not need to be
           provided as grant money is spent and/or received. We, therefore, revised our
           finding to identify the Brandon Apartments grant as behind in its cash match and
           have clearly stated that the Community has until the end of the grant term to
           provide the full cash match. We have also eliminated any repayment with regards
           to Brandon Apartments.

Comment 14 Our review included closed and active grants based on our initial interpretation
           that cash match should be provided as grant money is received. We disagree that
           the Community did not have weaknesses in its internal controls for the reasons
           stated in Comments 2 and 6.

Comment 15 We disagree. See comments 2, 6, and 14.




                                            20
Appendix C
                                       CRITERIA
A. Regulations at 24 [Code of Federal Regulations] 85.40(a) state that grantees are
   responsible for managing the day-to-day operations of grant and subgrant activities.
   Grantees must monitor grant- and subgrant-supported activities to ensure compliance
   with applicable federal requirements and that performance goals are being achieved.
   Grantee monitoring must cover each program, function, or activity.

B. Office of Management and Budget Circular A-133, Audits of States, Local
   Governments, and Nonprofit Organizations, subpart D, section 400(d), states: “A
   pass-through entity shall perform the following for the federal awards it makes: … (2)
   advise subrecipients of requirements imposed on them by the federal laws, regulations,
   and the provisions of contracts or grant agreements as well as any supplemental
   requirements imposed by the pass-through entity; (3) Monitor the activities of
   subrecipients as necessary to ensure that federal awards are used for authorized purposes
   in compliance with laws, regulations, and the provisions of contracts or grant agreements,
   and that performance goals are achieved.”

C. Regulations at 24 [Code of Federal Regulations] 85.24(b)(6) state that costs counting
   toward satisfying a cost-sharing or matching requirement must be verifiable from the
   records of grantees and subgrantees.

D. The 2005 Super Notice of Funding Availability, part III, subpart B, states that for all
   Supportive Housing Program funding for supportive services and Homeless Management
   Information Systems, a grantee must provide a 25 percent cash match. This means that
   of the total supportive services budget line item, no more than 80 percent may be from
   Supportive Housing Program grant funds. The cash source may be the grantee, other
   federal programs, state and local governments, or private resources. Documentation of
   the match requirement must be maintained in the grantee’s financial records on a grant-
   specific basis.

E. Office of Management and Budget Circular A-110, Uniform Administration
   Requirements for Grants and Agreements with Institutions of Higher Education,
   Hospitals, and Other Non-Profit Organizations, subpart C, section 23(a), states that
   all contributions, including cash and third-party in-kind, shall be accepted as part of the
   recipient’s cost sharing or matching when such contributions meet all the following
   criteria:

       1. Are verifiable from the recipient’s records;
       2. Are not included as contributions for any other federally assisted project for the
          program;
       3. Are necessary and reasonable for proper and efficient accomplishment of project
          or program objectives;
       4. Are allowable under the applicable cost principles;



                                            21
       5. Are not paid by the federal government under another award, except where
          authorized by federal statute to be used for cost sharing or matching;
       6. Are provided for in the approved budget when required by the federal awarding
          agency; and
       7. Conform to other provisions of the circular, as applicable.

F. Annual progress reports require that the cash match amounts be properly reported and
   the source of the specific cash match be explicitly stated.




                                         22
